                                      SOCIAL SECURITY

MEMORANDUM

Date:   September 22, 2006                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Assessing Social Security Administration’s Efforts to Protect Sensitive Information
        (A-14-07-27068)


        The attached report summarizes our assessment of the Social Security Administration’s (SSA)
        actions taken to protect sensitive information, as required by the Office of Management and
        Budget (OMB) Memorandum M-06-16, Protection of Sensitive Agency Information.
        OMB M-06-16 requires the Office of the Inspector General to perform a review of SSA’s efforts
        to comply with the requirements specified in the memorandum.

        Based on our assessment, SSA has taken a number of steps to comply with the requirements of
        OMB M-06-16. We believe the observations outlined in our report will assist SSA management
        in strengthening its security program to better protect the Agency’s Personally Identifiable
        Information. Please comment on corrective action taken or planned on each recommendation. If
        you wish to discuss the final report, please call me or have your staff contact Steven L.
        Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            S
                                                            Patrick P. O’Carroll, Jr.

        Attachment
Assessing Social Security Administration’s
 Efforts to Protect Sensitive Information




          September 2006       A-14-07-27068
       Patrick P. O’Carroll, Jr. – Inspector General
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   September 22, 2006                                                                              Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Assessing Social Security Administration’s Efforts to Protect Sensitive Information
        (A-14-07-27068)


        OBJECTIVE
        Our objective was to assess the Social Security Administration’s (SSA) actions to ensure that
        Personally Identifiable Information (PII) is safeguarded in accordance with the Office of
        Management and Budget (OMB) Memorandum M-06-16, Protection of Sensitive Agency
        Information.

        BACKGROUND
        In response to numerous incidents involving the compromise or loss of sensitive personal
        information, OMB issued several memoranda to provide Federal agencies guidance on the
        protection of PII entrusted to them.

        OMB defined Sensitive PII as:

                   …any information about an individual maintained by an agency, including, but
                   not limited to, education, financial transactions, medical history, and criminal or
                   employment history and information which can be used to distinguish or trace an
                   individual's identity, such as their name, social security number, date and place of
                   birth, mother’s maiden name, biometric records, etc., including any other personal
                   information which is linked or linkable to an individual. 1

        Information systems can be either electronic or manual.




        1
            OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
            Incorporating the Cost for Security in Agency Information Technology Investments, July 12, 2006.
Page 2 – The Commissioner

OMB issued Memorandum M-06-16, on June 23, 2006. The Memorandum specifies measures
that agencies need to have in place to ensure protection of sensitive remote information 2 by
August 7, 2006. 3 M-06-16 requires Federal agencies to comply with the Security Checklist
provided by National Institute of Standards and Technology (NIST) and recommends four
additional actions that agencies should take for the protection of remote sensitive information.
The intent is to compensate for the lack of physical security controls when information is
removed from, or accessed from outside the agency location.

The security controls and assessment procedures in the NIST Security Checklist were taken from
NIST Special Publication 800-53, Recommended Security Controls for Federal Information
Systems, February 2005 and NIST Special Publication 800-53A, Guide for Assessing the Security
Controls in Federal Information Systems (Second Public Draft), April 2006. The controls and
assessment methods/procedures in the checklist are a subset of what is currently required for
moderate and high impact information systems.

SCOPE AND METHODOLOGY
Our work was limited to assessing SSA’s efforts to protect sensitive information as prescribed by
OMB Memorandum M-06-16. To meet our objective, we interviewed appropriate Agency staff
and reviewed relevant Agency policies and procedures and controls’ documentation. We used
the review guide and the Data Collection Instrument developed by the President’s Council on
Integrity and Efficiency/Executive Council on Integrity and Efficiency. See Appendix B for
more details on our Scope and Methodology.

SUMMARY OF RESULTS

Our assessment showed that SSA has taken a number of steps to comply with OMB
Memorandum M-06-16 requirements. Based on our assessment, we found that the Agency has
taken the following actions to protect its sensitive personal information;

•      SSA has initiated projects to encrypt all laptop computers and mobile devices.
•      On June 6, 2006, SSA’s Chief Information Officer (CIO) issued a message to all SSA
       employees, contractors and Disability Determination Service employees to remind them of
       their responsibilities to properly safeguard PII entrusted to them.
•      SSA has also created a web page Safeguarding Personal Information, where PII is defined
       and PII protection issues are discussed.
•      SSA computers and applications are set to time out after 15 minutes of inactivity.




2
    Remote information is information that is either accessed remotely or physically transported outside of the
    agency’s secured, physical location.
3
    OMB Memorandum M-06-16, Protection of Sensitive Agency Information, page 1, June 23, 2006.
Page 3 – The Commissioner

SSA continues to make progress in the protection of the PII. However, to fully comply with
OMB Memorandum M-06-16 and to better protect remote PII, SSA needs to improve in the
following areas:

                •      SSA policy for the protection of PII;
                •      Encryption of removable media;
                •      Encryption of sensitive data on mobile computers and devices;
                •      Two-factor authentication when remotely accessing PII; and
                •      Logging data extracts.

SSA Policy for the Protection of PII

SSA’s information security policy is documented in its Information Systems Security Handbook
(ISSH). During our review, we identified Agency policies and procedures regarding the
protection of PII. For example, the memorandum issued by the CIO states “Mainframe access
from the alternate duty station for those employees on flexiplace is prohibited.” However, a
number of important points in OMB Memorandum M-06-16 are not addressed. For example,
SSA does not explicitly state whether downloading of PII is allowed. Also, the policy does not
clearly state what remote access methods should be used. To comply better with OMB
Memorandum M-06-16, SSA needs to revise and consolidate its security policy.

Encryption of Removable Media

OMB Memorandum M-06-16 recommends encryption for PII being transported and/or stored
offsite. 4 SSA routinely sends its systems and data back-up tapes to off-site storage facilities
(OSSF). There are about 20,000 tapes stored at its primary OSSF which contain PII. Currently,
these tapes are not encrypted before they are sent for off-site storage. However, there are
numerous compensating controls to protect these tapes such as storage in a secured vault, guards,
and video monitoring. SSA is also in the process of evaluating an off-site data encryption
solution to address this issue. In addition, SSA has implemented stringent physical security
controls to protect these tapes during transportation to and within the storage facility.

Encryption of Sensitive Data on Mobile Computers and Devices

OMB Memorandum M-06-16 recommends encryption of all data on mobile computers and
devices that carry sensitive agency data. 5 SSA has actively pursued the encryption of data on all
mobile devices and has initiated a project to encrypt the hard drives of all laptop computers. All
new laptops should have been encrypted by August 31, 2006 and all older laptops should be
encrypted by October 31, 2006. In the future, SSA plans to decommission unencrypted laptops.

Additionally, SSA’s Outlook Web Access (OWA) enables employees to access their SSA
mailboxes from any computer which has Internet access. Employees can use their home

4
    OMB M-06-16, supra at page 1 and 6.
5
    Id.
Page 4 – The Commissioner

computers to obtain full access to e-mail attached files through OWA. Although SSA requires
password protection for such files, it does not ensure files containing PII are encrypted. SSA is
working on a solution that will increase the security of data accessed through OWA. See section
on two-factor authentication.

Two-Factor Authentication When Remotely Accessing PII

OMB Memorandum M-06-16 recommends that agencies allow remote access only with two-
factor authentication where one of the factors is provided by a device separate from the computer
gaining access. 6 SSA employees can access PII remotely through two methods, a virtual private
network (VPN) and OWA. SSA’s VPN can only be used on SSA computers configured to use
SSA’s VPN. The VPN technology uses two-factor authentication method: Smartcard (separate
from the computer gaining access) and a password.

To access OWA, an individual uses his/her SSA network Personal Identification Number and
password. However, the Office of Telecommunications and Systems Operations is developing
and testing improved authentication methods to meet the requirements set forth by OMB
Memorandum M-06-16.

Logging Data Extracts

OMB Memorandum M-06-16 recommends that agencies “log all computer-readable data
extracts from databases holding sensitive information and verify each extract including sensitive
data has been erased within 90 days or its use is still required.” 7 SSA acknowledged that it has
not logged all of its data extracts nor verified that they were erased within 90 days.

SSA stated that this OMB recommendation poses a significant business concern and has serious
implications for many existing SSA business processes. SSA routinely and extensively extracts
data from its databases that contain PII and shares this information with both internal and
external entities. Internally, SSA components use the data extracts within the organization for its
core business processes and various reviews. Externally, SSA provides data extracts to other
Federal, state and local government partners and trusted-third parties to assist in cross-agency
program delivery and coordination.

Due to the large number of the data extracts created daily, SSA stated that it cannot log and track
this information in accordance with OMB Memorandum M-06-16. However, the Agency has
other compensating controls to protect the PII contained in the data extracts. They include
access controls, certain logging activities, internal and external security audits, and the
implementation of a new confidentiality notice transferring custodial responsibilities for
protecting PII. SSA should continue to pursue its efforts to protect data extracts involving PII.




6
    OMB M-06-16, supra at page 1.
7
    Id.
Page 5 – The Commissioner

CONCLUSIONS AND RECOMMENDATIONS

Our assessment showed that SSA has taken a number of steps to comply with OMB
Memorandum M-06-16 requirements and has made progress in the protection of the PII. SSA
has initiated projects to encrypt all laptop computers and mobile devices and has issued a
reminder to its employees to remind them of their responsibilities to properly safeguard PII
entrusted to them. SSA has also created a web page Safeguarding Personal Information, where
PII is defined and PII protection issues are discussed. However, there are a few areas in the
protection of remote PII that need to be addressed. To fully comply with OMB M-06-16, we
recommend SSA:

   1. Revise and consolidate Agency policy to better protect PII;

   2. Continue to investigate methods to encrypt PII stored off-site and implement
      technologies that meet recommended NIST standards;

   3. Complete on-going projects to encrypt all mobile computers and devices;

   4. Implement stronger authentication solutions for OWA; and

   5. Continue efforts to log and protect data extracts involving PII per NIST standards.




                                                   S
                                                   Patrick P. O’Carroll, Jr.
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
DCI        Data Collection Instrument
FIPS       Federal Information Processing Standards
FISMA      Federal Information Security Management Act of 2002
ISSH       Information Systems Security Handbook
NIST       National Institute of Standards and Technology
OMB        Office of Management and Budget
OSSF       Off-site Storage Facility
OWA        Outlook Web Access
PII        Personally Identifiable Information
SP         Special Publication
SSA        Social Security Administration
VPN        Virtual Private Network
                                                                                         Appendix B

Scope and Methodology
The following is taken from the review guide developed by the President’s Council on Integrity
and Efficiency/Executive Council on Integrity and Efficiency.

Various laws and regulations have addressed the need to protect sensitive information held by
government agencies including the Federal Information Security Management Act (FISMA), the
E-Government Act of 2002, the Privacy Act of 1974, and the Office of Management and
Budget’s (OMB) Circular A-130, Management of Federal Information Resources. FISMA
requires agencies to have a security program and controls for systems to protect their sensitive
information. 1

FISMA also requires agencies to implement standards and guidelines developed by the National
Institute of Standards and Technology (NIST). 2 Relevant standards are:

       •   Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
           Categorization of Federal Information and Information Systems, February 2004;

       •   FIPS Publication 200, Minimum Security Requirements for Federal Information and
           Information Systems, March 2006; and

       •   FIPS Publication 201, Personal Identity Verification of Federal Employees and
           Contractors, February 2005.

Additional guidance on protecting PII and other sensitive information is described in NIST
Special Publication (SP) 800 series. Among them, SP 800-53, Recommended Security Controls
for Federal Information Systems, provides key criteria for assessing compliance with FISMA
requirements. This guidance forms the basis for the OMB Memorandum M-06-16 Security
Checklist covering protection of remote information. OMB’s memorandum conveys the intent
of implementing the checklist and specific recommended actions to be taken by Federal agencies
for the protection of sensitive information to compensate for the lack of physical security
controls when information is removed from, or accessed from outside the agency location. 3
The following documents were considered with this review:

       •   OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy
           Provisions of the E-Government Act of 2002, September 2003;
       •   OMB Memorandum M-03-18, Implementation Guidance for the E-Government Act
           of 2002, August 2003;


1
    Public Law 107-347, Title III, Section 301, 44 U.S.C. § 3541.
2
    Public Law 107-347, Title III, Section 302, 44 U.S.C. § 11331.
3
    OMB Memorandum M-06-16, Protection of Sensitive Agency Information, page 1, June 23, 2006.
                                                    B-1
   •   OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
       Information and Incorporating the Cost for Security in Agency Information
       Technology Investments, July 2006;
   •   OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information,
       May 2006;
   •   OMB Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal
       Information Security Management Act and Agency Privacy Management, July 2006;
   •   FIPS 199, Standards for Security Categorization of Federal Information and
       Information Systems, February 2004;
   •   FIPS 200, Minimum Security Requirements for Federal Information and Information
       Systems, March 2006;
   •   NIST SP 800-53, Recommended Security Controls for Federal Information Systems,
       February 2005;
   •   NIST SP 800-53A, Guide for Assessing the Security Controls in Federal Information
       Systems (Second Public Draft), April 2006;
   •   NIST SP 800-60, Guide for Mapping Types of Information and Information Systems
       to Security Categorization Levels, June 2004;
   •   Public Law 107-347, E-Government Act of 2002, Titles II and III;
   •   OMB Circular A-130, Management of Federal Information Resources, November 2000;
       and
   •   The Privacy Act of 1974; 5 U.S.C. 552a.

To meet our objectives, we interviewed appropriate Agency staff and reviewed relevant Agency
policies and procedures and controls documentation. We completed our work in August and
September 2006 in accordance with the review guide developed by the President’s Council on
Integrity and Efficiency/Executive Council on Integrity and Efficiency.




                                             B-2
                                                                               Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audit Division
   (410) 965-9702

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch
   (410) 965-9719

Acknowledgments

In addition to the persons named above:

   Grace Chi, Auditor-in-Charge

   Mary Ellen Fleischman, Senior Program Analyst

   Harold Hunter, Senior Auditor

   Evelyn Chao, Auditor

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at www.socialsecurity.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218. Refer
to Common Identification Number A-14-07-27068.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
 Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
